U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

August 27, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Antwan R. Cray v. Warden, FCC Coleman-Medium,
No. 20-5132
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 19, 2020,
and placed on the Court’s docket on July 21, 2020. The government’s response is currently due,
on one extension, on September 21, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including October 21, 2020, within which to file the government’s response. This extension
is necessary because the attorneys with principal responsibility for final preparation of the
government’s response have been heavily engaged with the press of other matters before the Court.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General

cc:

See Attached Service List

20-5132
CRAY, ANTWAN R.
WARDEN, FCC COLEMAN - MEDIUM

ANTWAN R. CRAY
53343-018
FFC - COLEMAN - MEDIUM
UNIT A-3
COLEMAN, FL 33521-1032

